No. 20-___
IN THE

LOUISIANA REAL ESTATE APPRAISERS BOARD,
Petitioner,
v.
UNITED STATES FEDERAL TRADE COMMISSION,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
PETITION FOR A WRIT OF CERTIORARI
Thomas C. Goldstein
Counsel of Record
Eric F. Citron
Molly Runkle
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tgoldstein@goldsteinrussell.com

W. Stephen Cannon
Seth D. Greenstein
Allison F. Sheedy
Richard O. Levine
James J. Kovacs
J. Wyatt Fore
CONSTANTINE CANNON LLP
1001 Pennsylvania Ave., N.W.
Suite 1300N
Washington, DC 20004
(202) 204-3500

QUESTION PRESENTED
Whether and under what conditions orders
denying state-action immunity to public entities are
immediately appealable under the collateral-order
doctrine.

ii
RELATED PROCEEDINGS
Proceedings directly on review:
Louisiana Real Estate Appraisers Board v. FTC,
No. 20A107 (U.S. Dec. 18, 2020)
Louisiana Real Estate Appraisers Board v. FTC,
No. 19-30796 (5th Cir. Oct. 2, 2020)
Louisiana Real Estate Appraisers Board v. FTC,
No. 19-CV-00214-BAJ-RLB (M.D. La. July 29, 2019)
In the Matter of Louisiana Real Estate Appraisers
Board, No. 9374 (FTC Apr. 10, 2018)
Other related proceedings:
Louisiana Real Estate Appraisers Board v. FTC,
No. 18-60291 (5th Cir. Feb. 28, 2019)

iii
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
RELATED PROCEEDINGS........................................ ii
TABLE OF AUTHORITIES ....................................... iv
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 1
INTRODUCTION ........................................................ 1
STATEMENT OF THE CASE..................................... 4
REASONS FOR GRANTING THE WRIT ................ 15
I.

The Courts of Appeals Are Divided .................... 17

II. This Division Warrants This Court’s Review .... 24
III. The Decision Below Is Wrong ............................. 26
A. Orders Denying State-Action Immunity
Meet the Collateral-Order Criteria ............. 27
B. The Fifth Circuit’s Rule Is Confused and
Should Also Be Rejected ............................... 31
IV. The Issue Presented Is Important ...................... 33
V. This Case Is a Suitable Vehicle to Finally
Resolve the Question Presented ......................... 34
CONCLUSION .......................................................... 36
APPENDIX A: Opinion (5th Cir. Oct. 2, 2020) ........ 1a
APPENDIX B: Ruling and Order
(M.D. La. July 29, 2019) .......................................... 15a
APPENDIX C: Order (5th Cir. Dec. 4, 2020) ......... 25a
APPENDIX D: Order (5th Cir. Dec. 1, 2020) ......... 26a

iv
TABLE OF AUTHORITIES
Cases
Acoustic Sys., Inc. v. Wenger Corp.,
207 F.3d 287 (5th Cir. 2000) ............................ 13, 21
Askew v. DCH Reg’l Health Care Auth.,
995 F.2d 1033 (11th Cir. 1993) .............................. 20
Auraria Student Hous. at the Regency, LLC v.
Campus Vill. Apartments, LLC,
703 F.3d 1147 (10th Cir. 2013) ........................ 21, 23
Bolt v. Halifax Hosp. Med. Ctr.,
980 F.2d 1381 (11th Cir. 1993) .............................. 20
Cal. Retail Liquor Dealers Ass’n v. Midcal
Aluminum, Inc.,
445 U.S. 97 (1980) .......................................... passim
Cohen v. Beneficial Indus. Loan Corp.,
337 U.S. 541 (1949) ................................................ 27
Commuter Transp. Sys., Inc. v. Hillsborough
Cnty. Aviation Auth.,
801 F.2d 1286 (11th Cir. 1986) .................. 19, 22, 23
Coopers & Lybrand v. Livesay,
437 U.S. 463 (1978) .................................................. 8
Danner Constr. Co. v. Hillsborough County,
608 F.3d 809 (11th Cir. 2010) ................................ 19
Digital Equip. Corp. v. Desktop Direct, Inc.,
511 U.S. 863 (1994) ................................................ 27
Diverse Power, Inc. v. City of LaGrange,
934 F.3d 1270 (11th Cir. 2019) .............................. 19
DRG Funding Corp. v. Sec’y of Hous. & Urb. Dev.,
76 F.3d 1212 (D.C. Cir. 1996) .................................. 8
Franchise Tax Bd. of Cal. v. Hyatt,
139 S. Ct. 1485 (2019) ............................................ 34

v
FTC v. Phoebe Putney Health Sys., Inc.,
568 U.S. 216 (2013) .................................................. 3
FTC v. Standard Oil Co.,
449 U.S. 232 (1980) .................................................. 8
FTC v. Ticor Title Ins. Co.,
504 U.S. 621 (1992) ........................................ 6, 7, 30
Gelboim v. Bank of Am. Corp.,
574 U.S. 405 (2015) .................................................. 8
Huron Valley Hosp., Inc. v. City of Pontiac,
792 F.2d 563 (6th Cir. 1986) .............................. 8, 17
La. Real Estate Appraisers Bd. v. FTC,
917 F.3d 389 (5th Cir. 2019) ............................ 12, 13
Lauro Lines S.R.L. v. Chasser,
490 U.S. 495 (1989) ................................................ 29
Martin v. Mem’l Hosp. at Gulfport,
86 F.3d 1391 (5th Cir. 1996) .......................... passim
Mitchell v. Forsyth,
472 U.S. 511 (1985) ................................................ 20
Mohawk Indus., Inc. v. Carpenter,
558 U.S. 100 (2009) ................................................ 29
N.C. State Bd. of Dental Exam’rs v. FTC,
574 U.S. 494 (2015) ........................................ passim
Parker v. Brown,
317 U.S. 341 (1943) ........................................ passim
Praxair, Inc. v. Fla. Power & Light Co.,
64 F.3d 609 (11th Cir. 1995) .................................. 20
Rhode Island v. EPA,
378 F.3d 19 (1st Cir. 2004) ...................................... 9
Richardson-Merrell Inc. v. Koller,
472 U.S. 424 (1985) .................................................. 8

vi
S.C. State Bd. of Dentistry v. FTC,
455 F.3d 436 (2006) ........................................ passim
Salt River Project Agric. Improvement & Power
Dist. v. SolarCity Corp.,
138 S. Ct. 499 (2017) ...................................... passim
Salt River Project v. Tesla Energy Operations, Inc.,
138 S. Ct. 1323 (2018) .............................................. 1
Segni v. Commercial Office of Spain,
816 F.2d 344 (7th Cir. 1987) .................................. 23
SmileDirectClub, LLC v. Battle,
969 F.3d 1134 (11th Cir. 2020) .................. 20, 24, 25
SmileDirectClub, LLC v. Battle,
981 F.3d 1014 (11th Cir. 2020) ........................ 15, 20
SolarCity Corp. v. Salt River Project Agric.
Improvement & Power Dist.,
859 F.3d 720 (9th Cir. 2017) ............................ 18, 23
Swint v. Chambers Cnty. Comm’n,
514 U.S. 35 (1995) .................................................. 28
TEC Cogeneration Inc. v. Fla. Power & Light
Co., 76 F.3d 1560 (11th Cir.), modified on
reh’g, 86 F.3d 1028 (11th Cir. 1996) ...................... 19
Town of Hallie v. City of Eau Claire,
471 U.S. 34 (1985) .................................................... 6
We, Inc. v. City of Philadelphia,
174 F.3d 322 (3d Cir. 1999) ................................... 23
Constitutional Provisions
U.S. Const. amend. XI ................................... 20, 28, 31

vii
Statutes
Administrative Procedure Act,
5 U.S.C. §701 et seq. ............................... 8, 13, 14, 34
Federal Trade Commission Act,
15 U.S.C. §41 et seq. ................................... 12, 13, 27
Louisiana Administrative Procedure Act,
La. Stat. Ann. §49:950 et seq. ................................ 10
Sherman Act, 15 U.S.C. §1 et seq. ............... 3, 4, 21, 33
5 U.S.C. §704.......................................................... 9, 13
15 U.S.C. §1639e ........................................................ 10
28 U.S.C. §1254............................................................ 1
28 U.S.C. §1291........................................................ 8, 9
La. Stat. Ann. §37:3394 ................................................ 9
La. Stat. Ann. §37:3394(B) .......................................... 9
La. Stat. Ann. §37:3415.15 ........................................ 10
La. Stat. Ann. §37:3415.19 ..................................... 9, 10
Regulations
12 C.F.R. §226.42 ....................................................... 10
La. Admin. Code tit. 46, §31101 .......................... 10, 11
Other Authorities
Anti-Trust Update: FTC vs LREAB,
Working RE, Winter 2021, https://issuu.com/
workingre/docs/wre_issue55_150ppi ..................... 10
Phillip E. Areeda & Herbert Hovenkamp,
Antitrust Law: An Analysis of Antitrust
Principles and Their Application
(4th and 5th eds. 2020) ........................ 21, 23, 30, 31

PETITION FOR A WRIT OF CERTIORARI
Louisiana Real Estate Appraisers Board (LREAB)
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Fifth Circuit.
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a14a) is reported at 976 F.3d 597. The order of the district court (Pet. App. 15a-24a) is available at 2019 WL
3412162. The Fifth Circuit’s denial of LREAB’s motion to stay is reproduced at Pet. App. 25a.
JURISDICTION
The Fifth Circuit issued its opinion on October 2,
2020, terminating a stay issued by the district court
and directing the district court to dismiss LREAB’s
complaint. LREAB’s timely request for rehearing was
denied on December 1, 2020 (Pet. App. 26a-27a). The
question presented concerns the lower courts’ jurisdiction under the collateral-order doctrine. This Court
has jurisdiction under 28 U.S.C. §1254.
INTRODUCTION
This Court previously granted certiorari to address the question presented here. See Salt River Project Agric. Improvement & Power Dist. v. SolarCity
Corp., 138 S. Ct. 499 (2017). That case settled, however, before this Court could review the Ninth Circuit’s
holding that government entities are barred from immediately appealing an order denying them state-action antitrust immunity, and must first go through the
burdens of discovery and trial instead. See Salt River
Project v. Tesla Energy Operations, Inc., 138 S. Ct.

2
1323 (2018). At that time, two circuits (the Fifth and
Eleventh) permitted government entities to immediately appeal, while three (the Ninth, Fourth, and
Sixth) did not. See Pet. at 2-3, Salt River, supra (No.
17-368). This disagreement has not been resolved and
has only become more complicated since, particularly
because of this Court’s decision in North Carolina
State Board of Dental Examiners v. FTC, 574 U.S. 494,
502 (2015) (N.C. Dental), which holds that some kinds
of state governmental entities must meet a more stringent test to obtain state-action immunity on the merits
than others.
This case presents this Court with another opportunity to avoid the mounting confusion and definitively resolve this conflict in favor of the correct rule—
one that protects government entities from the indignities of trial when they are properly immune from
suit.
Importantly, it is not clear how many more
chances this Court will get to address this issue. Respondent Federal Trade Commission (FTC) will no
doubt argue that this split is at least partially resolving itself, because the Eleventh Circuit recently
granted sua sponte rehearing en banc in a case that at
best implicates this question in part, and may not
reach it at all. Thus, a disagreement among the circuits still exists and will necessarily survive. And importantly, as more circuits make it harder to put this
issue before an appellate court, the odds that this
Court will get another chance at review grow smaller.
The result is that the circuits could increasingly default into the same mistaken rule prohibiting all immediate appeals that this Court granted certiorari to
review in Salt River.

3
This Court should not permit that result. Layering a restrictive jurisdictional limitation on immediate
appeals on top of N.C. Dental’s limitation on the set of
government entities that will obtain immunity on the
merits will leave unquestionably public bodies exposed
to the threat of federal antitrust suit, without the ability to get a definitive answer on their immunity from
a court of appeals until it is too late. N.C. Dental itself
does not justify this result, nor does anything else.
Since Parker v. Brown, 317 U.S. 341 (1943), this
Court has consistently recognized that “because ‘nothing in the language of the Sherman Act or in its history’ suggested that Congress intended to restrict the
sovereign capacity of the States to regulate their economies, the Act should not be read to bar States from
imposing market restraints ‘as an act of government.’”
FTC v. Phoebe Putney Health Sys., Inc., 568 U.S. 216,
224 (2013) (quoting Parker, 317 U.S. at 350, 352) (alteration omitted). And this Court should not permit
the courts of appeals to impose in practice the very restriction on state sovereignty that Parker immunity
seeks to avoid. The leading antitrust treatise recognizes that immediate appealability is essential to immunize state government entities from the threats of
litigation that might prevent them from engaging in
the regulation that Parker immunity protects, and
that position is plainly correct. Indeed, as a strict matter of legal logic, decisions denying state-action immunity to state actors are immediately appealable collateral orders, because they definitively deny to those
state actors the very safety from trial that they are
seeking. This Court should thus grant certiorari and
reverse.

4
STATEMENT OF THE CASE
A. Legal Background
This case presents a question at the intersection
of two distinct legal doctrines: (1) state-action antitrust immunity; and (2) the collateral-order doctrine.
The question presented asks whether and when a government entity that is denied immunity under the former can bring an immediate appeal under the latter.
1. The Sherman Act, 15 U.S.C. §1 et seq., “serves
to promote robust competition, which in turn empowers the States and provides their citizens with opportunities to pursue their own and the public’s welfare.”
N.C. Dental, 574 U.S. at 502. “The States, however,
when acting in their respective realm, need not adhere
in all contexts to a model of unfettered competition.”
Id. at 503. As this Court has recognized, “in some
spheres [States] impose restrictions on occupations,
confer exclusive or shared rights to dominate a market, or otherwise limit competition to achieve public
objectives.” Id. And applying the Sherman Act to such
decisions “would impose an impermissible burden on
the States’ power to regulate.” Id.
Accordingly, in Parker, this Court held that “the
antitrust laws … confer immunity on anticompetitive
conduct by the States when acting in their sovereign
capacity.” N.C. Dental, 574 U.S. at 503. That immunity, known as “state-action” or “Parker” immunity,
“recognize[s] Congress’ purpose to respect the federal
balance” and serves to protect federalism and state
sovereignty. Id.
Sometimes, the applicability of the state-action
immunity doctrine to a particular actor is clear. For
example, “[s]tate legislation” is necessarily exempt

5
from attack under the federal antitrust laws, as “an
undoubted exercise of state sovereign authority.” 574
U.S. at 504. But because those state laws can (and
frequently must) empower state actors and local government entities to carry them out, the immunity
must also extend beyond the state legislature to cover
a State’s agencies, boards, and political subdivisions.
Likewise, it must also sometimes extend to private
parties that exercise state-vested authority.
This Court’s rules governing each kind of actor are
different, and so the first step in determining whether
immunity applies is deciding what kind of entity we
are dealing with: (1) the sovereign state itself; (2) another kind of government actor like a state agency or
local government; or (3) a purely private party. And
while this Court has not established bright lines
among these categories, it is typically easy enough to
distinguish between a sub-state actor like a municipality or regulatory board and a truly private entity that
state law might empower, like a state retail association or private insurance company.
Once the type of actor is determined, courts decide
the Parker immunity question by applying “the twopart test set forth in” California Retail Liquor Dealers
Ass’n v. Midcal Aluminum, Inc., 445 U.S. 97 (1980).
N.C. Dental, 574 U.S. at 506. Midcal’s operative rule
stems from the fundamental antitrust immunity of the
State’s legislative commands and actions. And so it
holds that, where a private actor is claiming that immunity, “[a] state law or regulatory scheme cannot”
provide it “unless, first, the State has articulated a
clear … policy to allow the anticompetitive conduct,
and second, the State provides active supervision of

6
[the] anticompetitive conduct.” Id. (quoting FTC v. Ticor Title Ins. Co., 504 U.S. 621, 631 (1992)) (alterations
in original). Conversely, this Court’s precedents hold
that, unlike private actors, sub-state (or “non-sovereign”) government actors like municipalities must satisfy only the first part of this test. Town of Hallie v.
City of Eau Claire, 471 U.S. 34, 47 (1985).
This Court recently modified that rule in N.C.
Dental, however, by holding that “a state board on
which a controlling number of decisionmakers are active market participants in the occupation the board
regulates must satisfy Midcal’s active supervision requirement in order to invoke state-action antitrust immunity.” 574 U.S. at 511-12. In so doing, N.C. Dental
did not question these entities’ fundamentally governmental character, and indeed acknowledged that this
meant some truly governmental entities would be subject to the active-supervision requirement. It thus emphasized that “Midcal’s active supervision test is an
essential prerequisite of Parker immunity for any nonsovereign entity—public or private—controlled by active market participants.” Id. at 510 (emphasis added).
As the dissenters observed, this development left
many hard questions for public entities that previously believed themselves exempt from the active-supervision requirement. Among those were “What is a
‘controlling number’?” “Who is an ‘active market participant’?” and “What is the scope of the market in
which a member may not participate while serving on
the board?” 574 U.S. at 526 (Alito, J., dissenting). And
these questions frequently make all the difference because—as this case itself demonstrates (infra p.11)—
the amount of state involvement that suffices for a dis-

7
trict court or the FTC to reliably find active supervision is nigh on impossible for the state agency to know
in advance, even when it fully complies with all stateimposed supervisory requirements. See, e.g., Ticor,
504 U.S. at 639 (finding that a possible state veto did
not suffice in a price-fixing case where there was “inaction in fact” by the supervising agency, but affirmatively cautioning that “[o]ur decision should be read in
light of the gravity of the antitrust offense, the involvement of private actors throughout, and the clear absence of state supervision” and refusing to “imply that
some particular form of state or local regulation is required to achieve ends other than the establishment of
uniform prices”); id. at 640-41 (Scalia, J., concurring)
(agreeing with dissenters that “this standard will be a
fertile source of uncertainty”).
The upshot is that, both before N.C. Dental and
particularly after, the immunity of a public entity like
a state regulatory board accused of violating the federal antitrust laws will depend on how the initial tribunal applies two separate and somewhat mushy
standards: (1) N.C. Dental’s standard for which public
entities must meet the active-supervision requirement; and (2) the active-supervision requirement itself. Those “context dependent” answers will very often be debatable. 574 U.S. at 515. And if those answers are not appealable, then the word of the first tribunal will also be the last word, at least with respect
to the State’s interest in avoiding both the inevitable
disruption to the enforcement of its laws and policies,
and the costs and risks of defending a full-blown federal antitrust suit.

8
2. The collateral-order doctrine, meanwhile, governs whether such orders are in fact immediately appealable. The ordinary rule is that courts of appeals
have jurisdiction only over final district court judgments. See 28 U.S.C. §1291. But the collateral-order
doctrine treats as “final” certain orders that do not
fully resolve the case but do “dispose[] of a matter separable from, and collateral to the merits of the main
proceedings,” and thus permits their immediate appeal. Gelboim v. Bank of Am. Corp., 574 U.S. 405, 414
n.5 (2015) (quotation marks omitted). “To fall within
the exception, an order must at a minimum satisfy
three conditions: It must ‘conclusively determine the
disputed question,’ ‘resolve an important issue completely separate from the merits of the action,’ and ‘be
effectively unreviewable on appeal from a final judgment.’” Richardson-Merrell Inc. v. Koller, 472 U.S.
424, 431 (1985) (quoting Coopers & Lybrand v. Livesay, 437 U.S. 463, 468 (1978)).
While this Court has noted the doctrine’s limited
scope, it has treated a variety of orders as collateral,
including denials of both qualified and absolute immunity for government actors. See, e.g., Huron Valley
Hosp., Inc. v. City of Pontiac, 792 F.2d 563, 568 (6th
Cir. 1986) (collecting examples). And it is generally
accepted that, although it arose in the context of district court appeals, it equally governs when review of
“final agency action” is permitted for otherwise nonfinal orders under the Administrative Procedure Act
(APA), 5 U.S.C. §701 et seq. See, e.g., FTC v. Standard
Oil Co., 449 U.S. 232 (1980) (applying collateral-order
doctrine to this question); Pet. App. 6a (applying doctrine below); see also DRG Funding Corp. v. Sec’y of
Hous. & Urb. Dev., 76 F.3d 1212, 1220 (D.C. Cir. 1996)

9
(Ginsburg, J., concurring) (calling APA §704 the “counterpart” to §1291 and applying collateral-order doctrine); Rhode Island v. EPA, 378 F.3d 19, 24-25 (1st
Cir. 2004) (noting that “every circuit to have considered the question” has applied the collateral-order doctrine “to judicial review of administrative decisions”).
B. Factual Background
1. Petitioner Louisiana Real Estate Appraisers
Board (LREAB) is a state regulatory agency in the Office of the Governor, tasked by the Legislature with
enforcing state and federal laws related to Louisiana’s
residential mortgage market and real estate appraisals. Pet. App. 2a; La. Stat. Ann. §§37:3394, 37:3415.19.
The Governor appoints board members for three-year
terms and, consistent with federal guidelines,
LREAB’s members reflect the diverse economic interests affecting the appraisal process. La. Stat. Ann.
§37:3394. Members are confirmed by the state Senate,
and removable by the Governor for cause. Pet. App.
2a; La. Stat. Ann. §37:3394. State law requires that
eight of LREAB’s ten members must hold a license as
a residential or general appraiser. La. Stat. Ann.
§37:3394(B). But at all times relevant here, the majority of LREAB’s members performed no residential
appraisals. See C.A. ROA.12, 16.
2. In 2010, Congress imposed various mandates
on state governments designed to eliminate a root
cause of the housing market collapse and resulting financial crisis. Among other things, Congress sought
to restore housing-market integrity by prohibiting
lenders from retaining unqualified appraisers who
were willing to appraise at inflated loan values. C.A.
ROA.8. The Dodd-Frank Wall Street Reform and Consumer Protection Act and federal agency regulations

10
therefore protected “appraisal independence” by mandating that: (1) residential mortgage appraisers be
paid “customary and reasonable” fees for their market
area; and (2) state agencies that license and register
appraisers and appraisal management companies
(AMCs) implement and enforce this requirement. See
Pet. App. 2a; C.A. ROA.12-13; 15 U.S.C. §1639e; 12
C.F.R. §226.42 (“Valuation independence”). In 2012,
the Louisiana Legislature incorporated these federally
imposed requirements into state law, and empowered
LREAB to implement and enforce them. Pet. App. 2a;
C.A. ROA.13.1
LREAB promulgated rules in compliance with
Louisiana’s Administrative Procedure Act, La. Stat.
Ann. §49:950 et seq., and after supervisory review by
both House and Senate committees, LREAB’s rules
took effect. See La. Admin. Code tit. 46, §31101 (Rule
31101); C.A. ROA.13-14, 114. As both federal and
state law required, LREAB investigated colorable
complaints of Rule 31101 violations, C.A. ROA.15, and
it was in fact the first state agency to enforce a customary and reasonable fee rule, Anti-Trust Update:
FTC vs LREAB, Working RE, Winter 2021, at 38,
https://issuu.com/workingre/docs/wre_issue55_150ppi.
And, predictably, the enforcement of a rule requiring
“customary and reasonable” fees affected price competition and limited AMCs’ ability to negotiate with individual appraisers.

1

Under the applicable provisions, LREAB does not set
prices but does have authority to review complaints and
determine whether the methods used by AMCs to set appraisal
prices meet the federal regulatory definitions of “customary and
reasonable.” See La. Stat. Ann. §§37:3415.15; 37:3415.19.

11
3. Nevertheless, in 2017, the FTC issued an administrative complaint alleging that LREAB’s actions
unreasonably restrained price competition. Pet. App.
3a; C.A. ROA.8-9. LREAB answered in part by arguing that it was entitled to Parker immunity. Pet. App.
3a; C.A. ROA.16. The FTC’s Complaint Counsel did
not dispute that LREAB was a governmental entity
within the meaning of the cases above, supra pp.4-7,
and it certainly is. Nor did Complaint Counsel address
whether LREAB’s actions were authorized by clearly
articulated state law for purposes of Midcal’s first requirement. Instead, Complaint Counsel averred that
LREAB was controlled by active market participants
and inadequately supervised by the State for purposes
of Midcal’s second prong. See C.A. ROA.16.
4. Reacting to the FTC’s allegation of inadequate
state supervision, Louisiana’s Governor issued Executive Order 17-16, entitled “Supervision of the Louisiana Real Estate Appraisers Board Regulation of Appraisal Management Companies.” Pet. App. 3a; C.A.
ROA.16, 92-93. This order supplemented the alreadypresent legislative oversight with executive branch supervision over LREAB’s promulgation and enforcement of Rule 31101. C.A. ROA.16-17, 92-93. And
then, acting under the now unambiguously intended
and direct supervision by both the legislative and executive branches, LREAB re-promulgated its customary and reasonable fee rule. C.A. ROA.17-18, 115.
5. LREAB then moved to dismiss the FTC’s administrative complaint based on state-action immunity and mootness. Pet. App. 3a. That same day, FTC
Complaint Counsel moved for a partial summary decision against LREAB’s state-action immunity defenses.
Id. On April 10, 2018, the two FTC Commissioners

12
who had issued the complaint denied LREAB’s motion,
granted Complaint Counsel’s motion, and dismissed
conclusively LREAB’s state-action immunity defenses.
Id. at 3a-4a; C.A. ROA.19, 70-90. In so doing, the Commission found that LREAB was “controlled by active
market participants” for N.C. Dental purposes, and
that none of the supervision by Louisiana’s House,
Senate, or executive branch was sufficiently “active” to
demonstrate that the State had taken on political accountability for LREAB. C.A. ROA.70-90.
6. In response to the FTC Order, the Governor
confirmed by Executive Order that the executive
branch properly supervised LREAB, and the Louisiana Senate unanimously passed a resolution reaffirming that LREAB’s rules were in fact supervised by the
Legislature and qualified as “sovereign acts of the
State of Louisiana and its legislature.” C.A. ROA.1920, 109-10, 112-16.
C. Procedural History
1. LREAB sought review of the FTC’s order dismissing its Parker immunity defenses in the Fifth Circuit under the collateral-order doctrine. C.A. ROA.20;
see Martin v. Mem’l Hosp. at Gulfport, 86 F.3d 1391
(5th Cir. 1996). That court initially granted LREAB a
stay pending review. C.A. ROA.20, 99. But the merits
panel went on to dismiss the petition for lack of appellate-court jurisdiction, holding that the authorization
for appeals from “cease-and-desist” orders under the
Federal Trade Commission Act (FTC Act), 15 U.S.C.
§41 et seq., did not permit review of other kinds of
Commission decisions, even if they were final under
the collateral-order doctrine. La. Real Estate Appraisers Bd. v. FTC, 917 F.3d 389, 391-92 (5th Cir. 2019)
(per curiam) (LREAB I). The Fifth Circuit suggested,

13
however, that even if the FTC Act did not permit review, the collateral-order doctrine might well permit
APA review in district court. LREAB I, 917 F.3d at
394 n.3; C.A. ROA.126 n.3; 5 U.S.C. §704.
2. Responding to that suggestion, LREAB initiated a federal APA suit in district court, and requested
a stay of further FTC proceedings pending that court’s
decision. The district court granted the stay, finding
that LREAB had shown that its state-action immunity
defense was likely to succeed. The court further found
that “the abrogation of immunity itself, if improvidently done, may cause irreparable harm by forcing
the State to engage in activities from which it might
otherwise be protected.” Pet. App. 23a.
3. The FTC then appealed the stay order to the
Fifth Circuit, which again vacated for jurisdictional
reasons. This new panel proceeded on the assumption
that the APA’s “final agency action” requirement was
governed by the collateral-order doctrine—the same
doctrine that governs attempted appeals from district
court orders. See Pet. App. 6a & n.3; supra pp.8-9. It
concluded, however, that the FTC’s order denying immunity was not immediately appealable by applying
an idiosyncratic rule that no other circuit follows: that
some public entities can immediately appeal such orders, whereas private entities and public entities subject to the active-supervision requirement under the
new N.C. Dental test cannot. Pet. App. 7a-12a; see also
Martin, 86 F.3d at 1395-97; Acoustic Sys., Inc. v.
Wenger Corp., 207 F.3d 287 (5th Cir. 2000).
To apply this unique test, the Fifth Circuit thus
had to decide whether LREAB should be considered a
public or private entity for purposes of the circuit’s im-

14
mediate appealability rule. And in making that determination, the court did not question whether LREAB
is a governmental entity outside of this particular inquiry. And indeed, it surely is—the court even referred to LREAB (correctly) as a “state agency.” Pet.
App. 2a.
Nevertheless, the Fifth Circuit refused to treat
LREAB as a public entity by assuming the very question LREAB sought to appeal—namely, whether N.C.
Dental requires it to satisfy the active-supervision
standard in the first place. Recall that, to deny
LREAB state-action immunity on the merits, the FTC
first had to find that, under N.C. Dental, LREAB was
“controlled by active market participants” and so
needed to meet Midcal’s second element. See supra
p.6. The Fifth Circuit’s decision rested on the assumption that this finding of market-participant control
was correct, even though that question was expressly
disputed in LREAB’s underlying APA action. Pet.
App. 10a-12a. And while, prior to this case, the Fifth
Circuit’s rule had simply distinguished between public
entities (who could appeal) and private entities (who
could not), the court of appeals decided in this case to
mint the new, esoteric rule described above, and treat
the outcome of the N.C. Dental question on the merits
of immunity as transforming certain public entities
into private ones for purposes of its appealability rule.
In so doing, the Fifth Circuit also concluded that
the FTC’s order did not satisfy two of the collateralorder test’s three ordinary elements, Pet. App. 12a13a—a view the Eleventh Circuit has rejected, see infra p.19. And it then suggested in passing that
“[a]nother reason for rejecting the Board’s quest for

15
collateral review is that this regulatory case was initiated by the FTC,” apparently conflating state-action
antitrust immunity with the distinct concept of sovereign immunity, without further explanation. Pet.
App. 12a.
4. LREAB sought en banc review, which was denied on December 1, 2020. Pet. App. 26a-27a. Two
days later, LREAB asked the Fifth Circuit to stay its
mandate so it could petition this Court for a writ of
certiorari. On December 4, the court of appeals denied
that request. Id. at 25a. This Court likewise denied a
stay. No. 20A107. This petition follows.
REASONS FOR GRANTING THE WRIT
As noted above, this Court already granted certiorari in Salt River, supra, to review the Ninth Circuit’s
holding that government entities are not entitled to
immediately appeal an order denying them state action immunity. This case implicates that same question, which continues to divide the circuits. Indeed, at
present, there is a three-way disagreement among the
Fourth, Sixth, and Ninth Circuits on the one hand, the
Eleventh Circuit (supported by dicta from the Third
and Seventh Circuits) on the other, and the Fifth Circuit, which occupies an increasingly unstable middle
position. This ongoing disagreement on a question
this Court has already identified as important enough
for certiorari review still merits this Court’s attention.
The FTC will no doubt suggest that this Court
need no longer act because the Fifth Circuit narrowed
the set of government entities entitled to an appeal in
this case, while the Eleventh Circuit recently ordered
en banc review sua sponte in a case that implicates its
appealability rule as well. See SmileDirectClub, LLC

16
v. Battle, 981 F.3d 1014 (11th Cir. 2020). In reality,
however, a conflict among the circuits certainly exists
now and will persist going forward, and the confusion
among their varying approaches is only growing.
Perhaps more importantly, if the circuits are coming into alignment on the question presented here,
they are manifestly moving in the wrong direction.
The no-appeals rule this Court agreed to review in Salt
River places core values of federalism and state sovereignty on even shakier footing than what an ever-narrowing version of Parker immunity currently supplies.
This Court’s decision in N.C. Dental, supra, exposed a
host of established state regulatory boards to novel antitrust attacks that turn on highly uncertain standards. Denying government entities the opportunity to
appeal the results of those uncertain inquiries condemns them to bear the disruptions to state regulatory
policies and risks of antitrust suits even if they turn
out to have been properly immune all along. An order
denying such immunity is plainly collateral under this
Court’s precedents, and—as the leading antitrust
treatise explains—any other approach leaves public
entities and the business of state government exposed
to bullying and holdup, and the costs of litigation and
the threat of treble damages. See infra p.30.
The predictable result is that more government
boards will settle in the face of threats from private
plaintiffs or enforcers like the FTC—with the latter
having the unique power to delay any neutral decisionmaker from reaching the immunity question until
after expensive proceedings have concluded. And that
means that this Court will have few opportunities to
resolve this issue going forward should it reject this
petition. The question presented warranted resolution

17
in Salt River, and it warrants resolution now in favor
of a rule that protects the sovereignty of the States.
I.

The Courts of Appeals Are Divided.

As this Court is already aware from its grant of
certiorari in Salt River, the circuits are split on the
question presented. And while that grant was frustrated when the parties settled, the split endures.
1. The Fourth, Sixth, and Ninth Circuits hold that
denials of state-action immunity are never immediately appealable regardless of the relevant entity’s status as “public” or “private.”
The Sixth Circuit took the first missteps in Huron
Valley Hospital, Inc. v. City of Pontiac, 792 F.2d 563,
567-68 (6th Cir. 1986), when it “decline[d] to extend
the right of immediate appeal” to the issue of stateaction antitrust immunity. It reasoned that a denial
“of this defense does not satisfy the three requirements necessary for an appeal under the collateral order doctrine.” Id. at 567. First, the court found that
this defense was not “of the same magnitude as qualified immunity or absolute immunity, but rather is
more akin to a defense of the original claim.” Id. The
court did not explain how it reached that conclusion or
decided the “magnitude” of various immunities. It
then continued to find that direct appeal provided sufficient protection of the defense, and that the denial of
state-action immunity was not “completely separate
from the merits of the original claim.” Id.
After the circuit split developed, the Fourth Circuit “join[ed] the Sixth Circuit in holding that the denial of Parker protection is not an immediately appealable collateral order.” S.C. State Bd. of Dentistry v.

18
FTC, 455 F.3d 436, 441 (2006). While it found “no dispute that the denial of Parker protection satisfies the
first collateral order requirement,” id., two judges
found that it does not satisfy the second (i.e., that Parker immunity is “not separable from the merits of the
underlying action,” id. at 442), and all three concluded
that it does not satisfy the third (i.e., that the order
was effectively reviewable after final judgment, because Parker is more akin to a merits defense than an
immunity from the suit itself, id. at 446-67). These
divisions demonstrate that confusion and disagreement is the norm on this issue, even with respect to
courts and jurists that nominally agree on the bottom
line.
Finally, the Ninth Circuit sided with the Fourth
and Sixth Circuits in SolarCity Corp. v. Salt River Project Agricultural Improvement & Power District, 859
F.3d 720 (9th Cir. 2017), the case this Court had
agreed to review before it settled. There, the court of
appeals—focusing only on the third collateral-order
requirement—distinguished state-action antitrust immunity from those immunities that do get immediate
appeals, such as sovereign, absolute, qualified, foreign-sovereign, and tribal-sovereign immunity. It reasoned that “those immunities are immunities from
suit, which differ from mere immunities from liability,” id. at 725, and characterized the state-action doctrine as the latter, id. at 727. It thus held that the
collateral-order doctrine did not apply, because the liability defense would be effectively reviewable after a
final judgment. Id.
Accordingly, these three courts together hold that
no party—including government entities of any kind—

19
is entitled to immediately appeal the denial of stateaction immunity.
2. The Eleventh Circuit, on the other hand, allows
immediate appeals from denials of state-action immunity.
It originally staked out this position in Commuter
Transportation Systems, Inc. v. Hillsborough County
Aviation Authority, 801 F.2d 1286 (11th Cir. 1986).
There, it characterized state-action antitrust immunity, like qualified immunity, as an “immunity from suit
rather than a mere defense to liability,” and thus concluded a “district court’s decision (denying immunity)
is effectively unreviewable on appeal from a final judgment.” Id. at 1289 (internal quotation marks and emphasis omitted). Moreover, it found that denying immunity conclusively answers the relevant question because the “right not to stand trial because of state action and statutory immunity has been conclusively determined.” Id. at 1289-90. And, finally, it found that
the immunity decision “resolve[d] an important issue
separate from the merits.” Id. at 1290. Therefore, the
court “h[eld] that the denial of a summary judgment
based on … immunity from liability and trial constitute[s] an appealable ‘collateral order,’” finding all
three of the relevant collateral-order factors satisfied.
Id.
The Eleventh Circuit has reaffirmed this holding
numerous times—particularly in cases involving governmental entities. See, e.g., Diverse Power, Inc. v.
City of LaGrange, 934 F.3d 1270, 1272 n.1 (11th Cir.
2019); Danner Constr. Co. v. Hillsborough County, 608
F.3d 809, 812 n.1 (11th Cir. 2010); TEC Cogeneration
Inc. v. Fla. Power & Light Co., 76 F.3d 1560, 1564
(11th Cir.), modified on reh’g, 86 F.3d 1028 (11th Cir.

20
1996) (per curiam); Praxair, Inc. v. Fla. Power & Light
Co., 64 F.3d 609, 611 (11th Cir. 1995); Askew v. DCH
Reg’l Health Care Auth., 995 F.2d 1033, 1036-37 (11th
Cir. 1993); Bolt v. Halifax Hosp. Med. Ctr., 980 F.2d
1381, 1389 n.5 (11th Cir. 1993). But it also recently
made clear that it continues to believe that even “private parties are entitled to appeal the denial of stateaction immunity under the collateral-order doctrine.”
SmileDirectClub, LLC v. Battle, 969 F.3d 1134, 1139
(11th Cir. 2020).2
3. The Fifth Circuit has a different and now far
more complicated rule. Under its hybrid approach,
private entities are denied an immediate appeal, but
governmental entities can sometimes take one.
Initially, the Fifth Circuit generally agreed with
the Eleventh Circuit in Martin v. Memorial Hospital
at Gulfport, 86 F.3d 1391 (5th Cir. 1996). In Martin,
the court held that “state action immunity shares the
essential element of absolute, qualified and Eleventh
Amendment immunities—‘an entitlement not to stand
trial under certain circumstances.’” Id. at 1395 (quoting Mitchell v. Forsyth, 472 U.S. 511, 525 (1985)). The
court accordingly recognized that “[o]ne of the primary
justifications of state action immunity is the same as
that of Eleventh Amendment immunity”—protecting
States’ dignitary interests. Id. at 1395-96. Those in-

2

As we explain in greater depth below, infra p.24-25, this
latest case is being reheard en banc, see 981 F.3d 1014 (ordering
rehearing sua sponte), but because it involves an assertion of immunity by private individuals, that rehearing will not necessarily
involve any decision regarding the circuit’s longstanding
approach to cases involving governmental entities.

21
clude their ability to enforce their laws with confidence, avoiding the distraction of state officials from
their duties, and the risk that qualified professionals
will be deterred from government service by the risk
that the antitrust laws will be used against them while
they try in good faith to serve the public interest.
“[T]he reasoning that underlies the immediate appealability of an order denying absolute, qualified or Eleventh Amendment immunity” thus indicated to the
court “that the denial of state action immunity should
be similarly appealable” because, “in each case, the
district court’s decision is effectively unreviewable on
appeal from a final judgment.” Id. at 1396; see also 1A
Phillip E. Areeda & Herbert Hovenkamp, Antitrust
Law: An Analysis of Antitrust Principles and Their Application ¶222b & n.36 (4th and 5th eds. 2020)
(Hovenkamp).
In Acoustic Systems, Inc. v. Wenger Corp., 207
F.3d 287 (5th Cir. 2000), however, the Fifth Circuit
made clear that this conclusion only extended to orders denying immunity to public entities because
Sherman Act suits against private defendants do not
raise the same dignitary, public-interest, and government-burden concerns as do suits against public entities. Id. at 293-94. The court therefore found that the
denial of state-action immunity to the private party in
that case was not an immediately reviewable collateral order. Id. at 294.3

3

The Tenth Circuit has reached the same conclusion in the
context of private entities, but there found it “unnecessary to
weigh in on the circuit split” regarding public entities. See
Auraria Student Hous. at the Regency, LLC v. Campus Vill.
Apartments, LLC, 703 F.3d 1147, 1151 (10th Cir. 2013).

22
The Fifth Circuit altered this reasonably clear
public/private line by holding below that, even though
LREAB is a government entity, it should be treated as
a private one for purposes of appealability. It did so
by taking N.C. Dental’s holding—i.e., that public agencies controlled by active market participants must
pass Midcal’s active-supervision requirement to establish Parker immunity on the merits—and applying it
to this jurisdictional question. Pet. App. 11a. Accordingly, it held that “while the Board may rightly defend
its entitlement to state action immunity, it invokes the
state action doctrine as a private party,” and therefore
“the policy imperatives behind relieving the Board
from suit as well as liability do not apply.” Id. at 11a12a. The Fifth Circuit did not explain how that could
be true of a board that in fact remained a public entity
full of duly appointed public servants. But the Fifth
Circuit’s current rule is nonetheless that state entities
that are not controlled by active market participants
can still immediately appeal denials of state-action immunity, while public entities that fall within N.C. Dental’s standard are lumped in with private parties and
cannot. And that is its rule even if the finding that
this public entity fails the N.C. Dental standard (or
that it even applies at all) is exactly what is being appealed in the first place.
4. In addition to this 3-1-1 disagreement, two additional circuits have suggested in dicta that denials
of state-action antitrust immunity to public entities
are immediately appealable.4 The Seventh Circuit did

4

The Fourth Circuit recognized as much. S.C. State Bd. of
Dentistry, 455 F.3d at 441 (“Two others have suggested the same
[as Martin and Commuter Transp. Sys.] in dicta.”).

23
so in Segni v. Commercial Office of Spain, 816 F.2d
344, 346 (7th Cir. 1987), which found that the denial
of a First Amendment immunity was not immediately
appealable under the collateral-order doctrine. In so
holding, the court found the Eleventh Circuit’s Commuter Transportation decision “distinguishable” because that case “was careful to point out that the
[state-action] doctrine had been interpreted to create
an immunity from suit and not just from judgment—
to spare state officials the burdens and uncertainties
of the litigation itself as well as the cost of an adverse
judgment.” Id. at 346. And the Third Circuit cited Segni for the same proposition. We, Inc. v. City of Philadelphia, 174 F.3d 322, 329 (3d Cir. 1999). These courts
thus have not squarely held that state-action immunity creates an immediately appealable immunity from
suit. But if these circuits were to stick to their characterization of state-action immunity in these decisions,
they would almost certainly hold that a state regulatory board like petitioner was entitled to an immediate
appeal of any order denying that immunity.
5. Finally, numerous courts and commentators
have recognized the existence of this conflict. See, e.g.,
SolarCity Corp., 859 F.3d at 729 (“We acknowledge
that two circuits have reached the opposite conclusion.”); Auraria Student Hous. at the Regency, LLC,
703 F.3d at 1150 (“The circuits are split on the question whether the denial of Parker immunity is effectively unreviewable on appeal from a final judgment.);
S.C. State Bd. of Dentistry, 455 F.3d at 441 (“The circuits are divided, however, as to whether the denial of
Parker protection satisfies the final two [collateral-order] requirements.”); Hovenkamp ¶228e.

24
II. This Division Warrants This Court’s Review.
Given recent developments, we expect the FTC to
argue that this 3-1-1 circuit disagreement no longer
warrants review. This argument should be rejected
for three reasons.
1. First, while it is true that the Eleventh Circuit
recently decided sua sponte to rehear the panel decision in SmileDirectClub, see supra p.15, that decision
will not resolve the split. The panel in that case
granted immediate appeal to private members of a regulatory board after they were denied state-action antitrust immunity, but it then went on to ultimately deny
those members’ claim of immunity on the merits. 969
F.3d at 1139, 1143. Given those two holdings, the fact
that neither party requested en banc review, and the
lack of any direction in the Eleventh Circuit’s order,
the precise question of interest to that court is unclear.
Moreover, although a concurring panel member did
suggest that the Eleventh Circuit ought to revisit its
precedent on the immediate appealability of state-action immunity denials, id. at 1147-48 (Jordan, J., concurring), another panel member dissented on the
ground that the district court had decided that further
factual development was needed to actually resolve
the immunity request in that case, meaning the interlocutory order in that case failed the first “conclusively
determines” collateral-order factor, id. at 1149-55
(Tjoflat, J., dissenting). The upshot is that there are a
number of resolutions possible in that rehearing,
many of which would not affect the Eleventh Circuit’s
appealability rule at all.
And perhaps even more importantly, the appellants in SmileDirectClub were the members of the
state board, appearing as (and considered by the court

25
to be) private parties; the state board itself had been
dismissed on sovereign immunity grounds. 969 F.3d
at 1137. Accordingly, that case does not squarely present any question about public entities, which is the
premise of the split articulated here. Moreover, there
is every reason to doubt that—having permitted direct
appeals by government entities in several previous
cases—the Eleventh Circuit will swing all the way
from one side of this issue (permitting even private
parties to appeal) to the other extreme (where no parties, even plainly governmental ones like cities, can
immediately appeal).
This means both that
SmileDirectClub is unlikely to do anything to truly resolve the split on the question presented and also will
not provide a vehicle for review on the far more crucial
question of appealability for public entities however it
is eventually decided.
Finally, even if the Eleventh Circuit’s place in the
circuit split is disregarded entirely, conflicting approaches to the question presented will persist. Martin remains part of the Fifth Circuit’s rule, see Pet.
App. 9a, and still permits some governmental entities
an immediate appeal that three circuits would deny.
See supra pp.20-21. The Fifth Circuit’s new approach
has its own serious flaws, but they are different from
those that drive the three circuits that foreclose the
immediate appeal of state-action immunity denials altogether, and that disagreement should be resolved.
Meanwhile, those three other courts also disagree internally about why such denials do not qualify as collateral orders. See supra p.18. It is thus clear that, no
matter what, this Court will substantially advance the
judicial interest in clear and uniform national rules—

26
particularly on this kind of jurisdictional issue—by
granting review in this case.
2. Second, that the courts may become somewhat
more uniform in rejecting appeals of orders denying
state-action immunity is in this instance a reason for
the Court to grant review now, rather than to pretermit review indefinitely. The more the circuits adopt
such a bar on appellate review—and the more broadly
they adopt it—the less likely it is that this Court will
be presented with future vehicles through which to
reach the question it intended to resolve in Salt River.
That is true because, as the courts of appeals make it
harder to bring an immediate appeal on the immunity
question, the predictable result will be fewer public entities willing to run the gauntlet all the way to this
Court simply to win on this jurisdictional question—
at which point they will still have to prove that they
are entitled to immunity on the merits to avoid going
to trial. Facing down those disruptions, costs, and
risks after losing on immunity in the trial court or
agency, state entities are much more likely to be browbeaten into settling before they ever have the chance
to get a final determination of their right to immunity
from these very disruptions, costs, and risks. The
Court should thus grant review now and establish a
uniform and correct approach to the question presented.
III. The Decision Below Is Wrong.
Accordingly, it is particularly important here that
the Sixth, Fourth, and Ninth Circuits’ rule is wrong,
while the Fifth Circuit has put a particularly incorrect
spin on its own idiosyncratic view. The right rule—
and the one this Court can and should adopt to decide
this case—is that denials of state-action immunity to

27
public entities are immediately appealable, period.
That rule both correctly applies collateral-order doctrine and has been rightly championed by the leading
treatise as important to protect the proper functioning
of state government. It is clear, easily applied, and
avoids a circularity in the Fifth Circuit’s new approach. It also protects state sovereignty and avoids
allowing N.C. Dental to become an even-broader impediment to the freedom of state actors to follow noncompetitive state regulatory regimes that this Court
could not have intended.
A. Orders Denying State-Action Immunity
Meet the Collateral-Order Criteria.
The collateral-order doctrine requires otherwise
non-final orders to meet three criteria: (1) they must
be “conclusive”; (2) they must “resolve important questions completely separate from the merits”; and
(3) they must “render such important questions effectively unreviewable on appeal from final judgment.”
Digital Equip. Corp. v. Desktop Direct, Inc., 511 U.S.
863, 867 (1994). Denials of state-action immunity to
public entities clearly meet these criteria.
1. First, denials of state-action immunity are undisputedly “conclusive” in the sense of being “fully consummated,” and not “tentative, informal or incomplete.” Cohen v. Beneficial Indus. Loan Corp., 337 U.S.
541, 546 (1949). As even the Fourth Circuit put it before finding these orders non-collateral, “[t]here is no
dispute that the denial of Parker protection satisfies
[this] requirement; a decision that the Board is not entitled to such protection ‘conclusively determines’ the
question of whether the Board is subject to the Federal
Trade Commission Act restrictions on anticompetitive
conduct.” S.C. State Bd. of Dentistry, 455 F.3d at 441;

28
see also Martin, 86 F.3d at 1397. The decision below
agrees as well. Pet. App. 7a.
2. Second, denials of state-action immunity
plainly “resolve important questions separate from the
merits.” Swint v. Chambers Cnty. Comm’n, 514 U.S.
35, 42 (1995). The question is surely important. As
described above, it implicates a State’s sovereignty
and dignity, just like other immunity doctrines that
receive collateral-order treatment like Eleventh
Amendment and qualified immunities. See Martin, 86
F.3d at 1395-96.
And the Parker determination is separate from
the merits of the underlying antitrust claim. As the
Fifth Circuit itself had previously and persuasively explained:
[A] claim of such state action immunity is conceptually distinct from the merits of the plaintiff’s claim that he has been damaged by the
defendants’ alleged violation of the federal
antitrust laws. An appellate court reviewing
the denial of the state or state entity’s claim
of immunity need not consider the correctness
of the plaintiff’s version of the facts, nor even
determine whether the plaintiff’s allegations
actually state a claim.
Martin, 86 F.3d at 1397. This is plainly right; in fact,
these two inquiries do not overlap at all. Note that the
considerations that govern state-action immunity ask
about the relationship between the defendant and the
State under state non-antitrust law, while the considerations that govern the merits of the underlying antitrust claim concern the relationship between the defendant and the plaintiff under federal antitrust law.

29
This case is itself a perfect example: Even assuming
LREAB must establish the second Midcal factor,
whether and how Louisiana actively supervises
LREAB has absolutely nothing to do with whether
LREAB’s enforcement conduct unreasonably restrained price competition.
3. Finally, a denial of state-action immunity is not
effectively reviewable on appeal from a final judgment
because the very process of going to trial and obtaining
a judgment irremediably harms the fundamental state
interests at issue. “To be ‘effectively unreviewable,’ an
order must protect an interest that would be ‘essentially destroyed if its vindication must be postponed
until trial is completed.’” S.C. State Bd. of Dentistry,
455 F.3d at 443 (quoting Lauro Lines S.R.L. v.
Chasser, 490 U.S. 495, 499 (1989)) (emphasis omitted);
see also Mohawk Indus., Inc. v. Carpenter, 558 U.S.
100, 107 (2009). This is a clear-cut case where the public and constitutional values at stake are lost by the
time final judgment rolls around.
Denials of state-action immunity offend state sovereignty and dignity interests. This Court has made
that clear over and over again. See, e.g., N.C. Dental,
574 U.S. at 503. And those kinds of harms are not repaired by simply rejecting the antitrust judgment
years after state actors have been dragged through an
antitrust trial that should not have been prosecuted
against an immune entity, and state coffers have been
emptied to mount the defense. Those costs—both dignitary and pecuniary—will not be recovered. Indeed,
before this case, the Fifth Circuit itself recognized that
the irremediable harms of forcing the immune entity
to go to trial included “distraction of officials from their

30
governmental duties, inhibition of discretionary action, and deterrence of able people from public service.” Martin, 86 F.3d at 1395-96. The leading treatise agrees that these irremediable harms are precisely the reasons why Parker must be treated as an
immediately appealable immunity from suit itself.
Hovenkamp ¶222b & n.36 (citing “the importance that
the Parker immunity issue not proceed to trial, especially when government officials are defendants,” so
that “[state] entities and officials cannot be intimidated from carrying out their regulatory obligations by
threats of costly litigation”).
And this is where the Fifth Circuit’s rule becomes
particularly problematic, because the existence and
extent of these harms are perfectly orthogonal to the
question whether the government entity at issue must
satisfy the active-supervision test under N.C. Dental.
In either case, the threat from antitrust allegation will
hinder state agencies from carrying out state policies;
and public servants appointed by the Governor and
confirmed by the Senate are going to be hailed into
depositions, threatened with antitrust suits for their
discretionary choices, and so deterred from taking up
such public-service roles in the first place. See FTC v.
Ticor Title Ins. Co., 504 U.S. 621, 641 (1992) (Scalia,
J., concurring) (noting that those electing to serve in
roles subjected to the active-supervision requirement
will often not know whether they in fact received active state supervision until after they choose to participate). And the State’s effort to deploy its regulatory
regime will thus be damaged, even if the threatened
suits are never brought, or do not finally prevail after
they impose their irremediable costs. That barrier to

31
effective state governance cannot be torn down after
the fact.
The simple reality is that a public entity forced
into continued litigation has irremediably lost the benefit of immunity from suit, and subsequent appeal opportunities can never really reinstate it. In this way,
Parker immunity mirrors the motivating forces behind
other immunities from suit that cannot be meaningfully restored on appeal from a final judgment, like
qualified, sovereign, and Eleventh Amendment immunity.
See, e.g., Martin, 86 F.3d at 1395-96;
Hovenkamp ¶222b (calling the state-action doctrine
an “immunity, not merely a defense that can be offered
at trial”). So denials of Parker immunity should likewise be immediately appealable.
B. The Fifth Circuit’s Rule Is Confused and
Should Also Be Rejected.
Even putting the details of collateral-order doctrine aside, the Fifth Circuit’s rule is unworkable on
its own terms.
1. As noted above, its main error is that it treats
the N.C. Dental rule subjecting certain public entities
to the active-supervision requirement as somehow relevant to whether those entities are actually governmental for other purposes—like their ability to take an
immediate appeal. See supra p.22. This appears to be
a simple category error. It is true that all private parties have to satisfy Midcal’s active-supervision requirement, but that does not mean that every entity
that has to satisfy Midcal’s active-supervision requirement is a private party or should be treated like one
for any other purpose. Indeed, the core conclusion of
N.C. Dental was that there are conditions under which

32
the active-supervision requirement should apply to
“any nonsovereign entity—public or private.” 574 U.S.
at 510 (emphasis added). Accordingly, nothing about
that decision would authorize or compel the courts to
treat public bodies as private parties to any other end.
The Fifth Circuit’s approach is also painfully circular. As explained above, the determination by the
district court or agency that a state board like LREAB
must meet the active-supervision requirement under
N.C. Dental requires application of a relatively amorphous standard that raises many close and difficult
questions. See supra p.6. Accordingly, as here, that
determination will quite frequently be the very one the
government entity wants to appeal. And yet the Fifth
Circuit’s appealability rule essentially assumes the
correctness of the lower court’s determination on this
issue, with the result of blocking the government entity from appealing that question in the first place.
2. The Fifth Circuit’s approach also seems to have
fundamentally confused sovereign immunity with
state-action immunity, suggesting in passing that because this case is “an action by the FTC rather than
private litigation,” that might present another reason
why an immediate appeal should not be allowed. Pet.
App. 10a. The court seems to have rooted that idea in
the rule that sovereign immunity—an entirely different doctrine—does not apply to suits brought against
the States by the federal government. Id. But this
point has no application whatsoever to Parker immunity itself—which is based on the principle that federal
antitrust law does not reach States and their agents
and officers—and has even less to do with the collateral-order status of orders denying that immunity.

33
Taken seriously, it would mean that the FTC could apply the Sherman Act directly to the sovereign State of
Louisiana, or could at least drag the State through an
extended proceeding before the Commission, before
the State could ever appeal that absurd proposition.
In truth, it is somewhat hard to understand the
conclusion that this passing discussion is intended to
reach. What it mostly demonstrates, however, is that
the Fifth Circuit’s rule is now hopelessly confounded
and untethered from the straightforward application
of collateral-order doctrine that should decide the
question presented. Because petitioner asks this
Court to adopt a simple rule that public entities ought
to be allowed to immediately appeal denials of stateaction immunity without qualification, a ruling for petitioner on the question presented would also clarify
that this detour by the Fifth Circuit was mistaken.
IV. The Issue Presented Is Important.
It may not need saying given that this Court has
already itself flagged this question as important
enough to merit certiorari, but as the foregoing suggests, the practical stakes of this issue for both States
and state entities like LREAB are enormous. The
basic reality is that the disruptions to the proper functioning of government caused by the threat of antitrust suits are substantial, that a rule foreclosing immediate appeal on this issue makes such threats
vastly more serious, and that losing an unappealable
request for immunity will frequently impose heavy
costs that government entities can ill-afford to bear.
What’s worse is that the courts of appeals are
awarding immediate appeals based on different rules,

34
such that the level of protection for state sovereign interests varies significantly depending on the circuit in
which the State happens to be located. See supra
pp.17-22. This circuit conflict therefore contravenes
“[e]ach State’s equal dignity and sovereignty under the
Constitution.” Franchise Tax Bd. of Cal. v. Hyatt, 139
S. Ct. 1485, 1497 (2019).
Moreover, because of this Court’s grant in Salt
River, it has the benefit of amicus briefing from that
case to inform its decision here. And a review of those
materials shows an issue of deep concern to many parties, bolstering the case for this Court’s intervention.
Most importantly, twenty-four States—joined by state
and municipal government associations led by the National Governors Association—advocated for a state
entity’s right to immediately appeal. 5 On the other
side, the United States, as a frequent prosecutor of antitrust violations, naturally opposed the right to an appeal, just as the FTC does here. See generally U.S. Br.,
Salt River, supra (No. 17-368). That this issue has
drawn opposing positions from the States and the federal government on an issue at the heart of federalism
and state sovereignty provides yet another compelling
reason to grant review.
V. This Case Is a Suitable Vehicle to Finally
Resolve the Question Presented.
While this case arises from an APA suit regarding
an FTC order, rather than an appeal from a district
court, that distinction makes no difference. The Fifth

5

See generally Tennessee et al. Amicus Br., Salt River,
supra (No. 17-368); Nat’l Governors Ass’n et al. Br., Salt River,
supra (No. 17-368).

35
Circuit, like other courts, recognized that the governing collateral-order doctrine is identical, and the case
was in fact decided on that assumption. See supra
p.13. Therefore, the question presented here and in
Salt River—whether orders denying state-action immunity to public entities are immediately appealable
under the collateral-order doctrine—can equally be
answered under either scenario.

36
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
W. Stephen Cannon
Seth D. Greenstein
Allison F. Sheedy
Richard O. Levine
James J. Kovacs
J. Wyatt Fore
CONSTANTINE CANNON LLP
1001 Pennsylvania Ave., N.W.
Suite 1300N
Washington, DC 20004
(202) 204-3500

Thomas C. Goldstein
Counsel of Record
Eric F. Citron
Molly Runkle
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tgoldstein@goldsteinrussell.com

Counsel for Petitioner Louisiana Real Estate Appraisers Board

January 22, 2021

APPENDIX

1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________________
No. 19-30796
________________________________
LOUISIANA REAL ESTATE APPRAISERS BOARD,
Plaintiff—Appellee,
versus
UNITED STATES FEDERAL TRADE COMMISSION,
Defendant—Appellant.
________________________________
Appeal from the United States District Court
for the Middle District of Louisiana
3:19-CV-214
________________________________
Filed October 2, 2020
________________________________
Before JONES, ELROD, and HIGGINSON, Circuit Judges.
EDITH H. JONES, Circuit Judge:
This is an appeal of a district court order staying
administrative proceedings that were initiated by appellant the Federal Trade Commission1 against appellee the Louisiana Real Estate Appraisers Board (the
“Board”) pursuant to the Federal Trade Commission
Act. Because the district court lacked jurisdiction, we
1

We refer to the FTC acting in its role as complaint counsel as
the “FTC” and the FTC acting in its adjudicatory capacity as the
“Commission.”

2a
vacate its stay order and remand with instructions to
dismiss.
I. BACKGROUND
The Board is a state agency tasked with licensing
and regulating commercial and residential real estate
appraisers and management companies in Louisiana.
La. Stat. Ann. §§ 37:3395; 37:3415.21. Each of the
Board’s ten members is appointed by the Governor and
confirmed by the state senate, and members are removable by the Governor for cause. Id. § 37:3394. Of
the ten members, eight must be “licensed as certified
real estate appraisers.” Id. § 37:3394(B)(1)(c), (b).
In 2010, Congress enacted the Dodd-Frank Wall
Street Reform and Consumer Protection Act, which requires lenders to compensate fee appraisers “at a rate
that is customary and reasonable for appraisal services performed in the market area of the property being appraised.” 15 U.S.C. § 1639e(i)(1). In response,
the Louisiana legislature amended its own law, the
Appraisal Management Company Licensing and Regulation Act (the “AMC Act”), to require that appraisal
rates be consistent with Section 1639e and its implementing
regulations.
See
La.
Stat.
Ann.
§ 37:3415:15(A). The legislature also gave the Board
the authority to “adopt any rules and regulations in
accordance with the [Louisiana] Administrative Procedure Act necessary for the enforcement of [the AMC
Act].” Id. § 37:3415.21.
Accordingly, the Board adopted Rule 31101, requiring that licensees “compensate fee appraisers at a
rate that is customary and reasonable for appraisal
services performed in the market area of the property
being appraised and as prescribed by La. Stat. Ann.

3a
§ 34:3415.15(A).” La. Admin. Code tit. 46 § 31101. Unlike the federal regulations, which instruct that appraisal fees are “presumptively” customary and reasonable if they meet certain market conditions, Rule
31101 prescribed its own methods by which a licensed
appraisal management company can establish that a
rate is customary and reasonable. Compare id., with
12 C.F.R. § 226.42(f)(2), (3).
In 2017, the FTC filed an administrative complaint against the Board, asserting the Board had engaged in “concerted action that unreasonably restrains
trade” in violation of the FTC Act’s prohibition on unfair methods of competition. The complaint alleged
Rule 31101 “unlawfully restrains competition on its
face by prohibiting [appraisal management companies] from arriving at an appraisal fee through the operation of the free market.” The FTC also alleged that
the Board’s enforcement of Rule 31101 unlawfully restrained price competition. In response, the Board denied the FTC’s allegations and argued that it was entitled to immunity from antitrust liability under the
state action doctrine.
Following the FTC’s initiation of proceedings
against the Board, the Governor of Louisiana issued
an executive order purporting to enhance state oversight of the Board. The Board also revised Rule 31101
in accordance with the Governor’s executive order.
Based on those changes, the Board moved to dismiss
the FTC’s complaint in the administrative proceedings, arguing that the executive order and revision of
Rule 31101 mooted the FTC’s claims. The same day,
the FTC cross-moved for summary judgment on the
Board’s state action immunity defense. On April 10,
2018, the Commission denied the Board’s motion and

4a
granted the FTC’s, rejecting the Board’s assertion of
state action immunity.
The Commission has not issued a final cease and
desist order, but the Board has twice challenged the
April 10, 2018 order in federal court to claim immunity. First, in late April, the Board petitioned this court
directly for review of the Commission’s order. In a published opinion, this court dismissed the petition for
lack of jurisdiction. La. Real Estate Appraisers Bd. v.
F.T.C., 917 F.3d 389, 393 (5th Cir. 2019) (LREAB I).
Second, and relevant here, the day after this court denied the Board’s petition for en banc rehearing, the
Board sued the FTC in a federal district court, alleging
the Commission’s April 10, 2018 order violated the Administrative Procedure Act. The Board also moved to
stay the ongoing Commission proceedings. The district
court granted the Board’s motion and stayed the Commission proceedings pending the resolution of the
Board’s APA claim. On appeal, the FTC principally
contends that the district court lacked jurisdiction.
II. DISCUSSION
We review questions of jurisdiction de novo, with
the “burden of establishing federal jurisdiction
rest[ing] on the party seeking the federal forum.” Gonzalez v. Limon, 926 F.3d 186, 188 (5th Cir. 2019).
The FTC contends the district court lacked jurisdiction over the Board’s lawsuit because the FTC Act
vests exclusive jurisdiction to review challenges to
Commission proceedings in the courts of appeals. 15
U.S.C. § 45(d) (“Upon the filing of the record with it
the jurisdiction of the court of appeals of the Unites
States to affirm, enforce, modify, or set aside orders of
the Commission shall be exclusive.”). The Board

5a
counters that the district court had jurisdiction pursuant to the APA’s default review provision, 5 U.S.C.
§ 704, regardless of the FTC Act’s judicial review
scheme. We agree with the FTC that the district court
lacked jurisdiction but for a different reason: Even if
the FTC Act does not preclude Section 704 review—an
issue we need not address—the Board fails to meet
Section 704’s jurisdictional prerequisites.2
Section 704 of the APA permits non-statutory judicial review of certain “final agency action.” 5 U.S.C.
§ 704 (“Agency action made reviewable by statute and
final agency action for which there is no other adequate remedy in a court are subject to judicial review.”). Absent a showing of finality, a district court
lacks jurisdiction to review APA challenges to administrative proceedings. Am. Airlines, Inc. v. Herman,
176 F.3d 283, 287 (5th Cir. 1999). Here, the Board relies on the collateral order doctrine as an expansion of
the finality requirement of Section 704. Because the
April 10, 2018 order meets the doctrine’s predicates,
the Board contends, the order should be treated as final and subject to challenge under the APA. The FTC
disagrees with this approach, and so do we.
The collateral order doctrine is a judicially created
exception to the “final decision” requirement of 28
U.S.C. § 1291, which governs appellate jurisdiction
2

The Board also argues we lack jurisdiction over the merits of
the FTC’s appeal, but because the district court lacked jurisdiction, we do not address the merits. See Arizonians for Official
English v. Arizona, 520 U.S. 43, 73, 117 S. Ct. 1055, 1072 (1997)
(recognizing that when a district court “lack[s] jurisdiction, we
have jurisdiction on appeal, not of the merits but merely for the
purpose of correcting the error of the lower court in entertaining
the [matter]”).

6a
over appeals of final district court decisions. See Exxon
Chemicals Am. v. Chao, 298 F.3d 464, 469 (5th Cir.
2002). The doctrine provides that an interlocutory decision is immediately appealable “as a final decision
under § 1291 if it (1) conclusively determines the disputed question; (2) resolves an important issue completely separate from the merits of the action; and (3)
is effectively unreviewable on appeal from a final judgment.” Acoustic Sys., Inc. v. Wenger Corp., 207 F.3d
287, 290 (5th Cir. 2000). This court has recognized that
“the requirement of ‘final agency action’ in [Section
704]” is analogous “to the final judgment requirement
of 28 U.S.C. § 1291.” Am. Airlines, 176 F.3d at 288; see
also LREAB I, 917 F.3d at 392 (“[C]ourts have recognized that the [APA’s] ‘final agency action’ requirement is analogous to § 1291’s ‘final decision’ requirement.”).3 We assume arguendo that equating finality
under Sections 1291 and 704 imports the collateral order doctrine into the Section 704 analysis.4 Nevertheless, the Board fails to show that the Commission’s interlocutory denial of state action immunity in this case
3

Other circuits concur. See, e.g., Chehazeh v. Attorney Gen.,
666 F.3d 118, 135 (3d Cir. 2012) (“A provision analogous to Section 704’s ‘final agency action’ requirement is found in 28 U.S.C.
§ 1291, which permits appellate review only of ‘final decisions’ of
a district court.”); DRG Funding Corp. v. Sec’y of Hous. & Urban
Dev., 76 F.3d 1212, 1220 (D.C. Cir. 1996) (Ginsburg, J., concurring) (“Our analysis of the finality requirement imposed by the
APA is properly informed by our analysis of that requirement in
§ 1291.”).
4

Note that this is a significant theoretical stretch, as it (a)
means the appeal to the district court of an interlocutory order
under the APA, which normally requires “final” agency action,
and (b) supersedes the FTC Act’s direction of appeals to the courts
of appeals.

7a
meets the doctrine’s requirements. As to the first
prong of the doctrine, there is no dispute that the Commission’s rejection of state action immunity was “conclusive.” Problems arise concerning the second prong,
whether the issue of state action immunity is “completely separate from the merits” of the FTC’s antitrust action, and the third prong, whether the decision
is “effectively unreviewable on appeal.”
The parties square off in differing interpretations
of our case law that has applied the collateral order
doctrine to denials of claims of state action immunity.
To begin our analysis, however, the background of the
substantive issues must be briefly recapitulated. “The
state action doctrine was first espoused by the Supreme Court in Parker v. Brown, 317 U.S. 341, 63
S. Ct. 307 [] (1943) as an immunity for state regulatory
programs from antitrust claims.” Acoustic Systems,
207 F.3d at 292. In Parker, the Court considered
whether a state statute that authorized state officials
to issue regulations restricting certain agricultural
competition violated antitrust law. 317 U.S. at 350–
51, 63 S. Ct. at 313–14. The Court found “nothing in
the language of the Sherman Act or in its history
which suggests that its purpose was to restrain a state
or its officers or agents from activities directed by its
legislature.” Id. Accordingly, the Court concluded that
state regulatory programs cannot violate the Sherman
Act because the “Act makes no mention of the state as
such, and gives no hint that it was intended to restrain

8a
state action or official action directed by a state.”5 Id.
at 351.
“In subsequent cases, the Court extended the
state action doctrine to cover, under certain circumstances, acts by private parties that stem from state
power or authority . . . as well as acts by political subdivisions, cities, and counties.” Martin v. Memorial
Hosp. at Gulfport, 86 F.3d 1391, 1397 (5th Cir. 1996)
(citing Cal. Retail Liquor Dealers Ass’n v. Midcal Aluminum, Inc., 445 U.S. 97, 100 S. Ct. 937 (1980); Town
of Hallie v. City of Eau Claire, 471 U.S. 34, 105 S. Ct.
1713 (1985)). But immunity for such actors is not automatic because they are not sovereign.6 Id. Rather, to
invoke state action immunity, private parties must
meet two requirements set forth in Midcal. First, “the
challenged restraint must be one clearly articulated
and affirmatively expressed as state policy.” Patrick v.
Burget, 486 U.S. 94, 100, 108 S. Ct. 1658, 1663 (1998)
(quoting Midcal, 445 U.S. at 105, 100 S. Ct. at 943).
5

The state action analysis applies to FTC actions as well as to
federal antitrust litigation. See F.T.C. v. Ticor Title Ins. Co., 504
U.S. 621, 635, 112 S. Ct. 2169, 2177 (1992) (applying the state
action analysis in a case arising only under the FTC Act). We also
note that, although “the state action doctrine is often labeled an
immunity, that term is actually a misnomer because the doctrine
is but a recognition of the limited reach of the Sherman Act . . . .”
Acoustic Sys., 207 F.3d at 292 n.3. Consistent with our prior opinions, however, we continue to refer to the doctrine as one of immunity. See generally Veritext Corp. v. Bonin, 901 F.3d 287 (5th
Cir 2018).
6

“For purposes of Parker, a nonsovereign actor is one whose
conduct does not automatically qualify as that of the sovereign
State itself.” N.C. St. Bd. of Dental Examiners v. F.T.C., 574 U.S.
494, 505, 135 S. Ct. 1101, 1111 (2015). Pardon the circularity of
this direct quotation.

9a
Second, “the anticompetitive conduct must be actively
supervised by the state itself.” Id. Municipalities and
other political subdivisions need only satisfy the first
Midcal prong; they need not show active supervision.
Town of Hallie, 471 U.S. at 45–46, 105 S. Ct. at 1720.
Following this framework, this court has twice addressed whether the collateral order doctrine authorizes interlocutory appeals from a district court’s denial
of state action immunity. In Martin v. Memorial Hospital at Gulfport, 86 F.3d 1391, 1396–97 (5th Cir.
1996), this court held that “the denial of a state or
state entity’s motion for dismissal or summary judgment on the ground of state action immunity” is immediately appealable. The defendant was a municipal
hospital, which this court ultimately held immune under the state action doctrine. Drawing an analogy with
principles that animate interlocutory appeals of government officials’ claims of absolute or qualified immunity, or the Eleventh Amendment, this court reasoned that making a “state or state entity” go to trial
to claim immunity renders the defense effectively unreviewable on appeal. Id. at 1396–97.
In Acoustic Systems, however, we clarified that
Martin’s extension of the collateral order doctrine was
limited “to the denial of a claim of state action immunity ‘to the extent that it turns on whether a municipality or subdivision [of the state] acted pursuant to a
clearly articulated and affirmatively expressed state
policy.’” Acoustic Systems, Inc. v. Wenger, 207 F.3d
287, 291 (5th Cir. 2000) (quoting Martin, 86 F.3d at
1397). The defendant in Acoustic Systems was a private party whose status did not implicate the concerns
underlying other immunity doctrines. Therefore, although the defendant could invoke the state action

10a
doctrine as a defense to liability, it could not obtain
interlocutory review of the issue to avoid suit. Id. at
293–94. Likewise, because a defense to liability is effectively reviewable on direct appeal, the denial of
state action immunity to a private party “is not an immediately reviewable collateral order.” Id.
Neither Martin nor Acoustic Systems fits this
case. In neither of those cases was the collateral order
doctrine being invoked as an appendage to APA Section 704, thus neither case involved interlocutory interference with an ongoing federal regulatory proceeding. Further, in each case, applying the Supreme
Court’s test for state action immunity was relatively
straightforward: Martin rested on Town of Hallie, 471
U.S. at 45-46, 105 S. Ct. at 1720 (holding that municipal entities, though not sovereign, may avail themselves of the immunity if their actions spring from governing state authority); Wenger, the Acoustic Systems
defendant, could only rely on private party immunity
pursuant to Midcal’s two-part test.
Here, the jurisdictional issue is more complex, as
it concerns both an action by the FTC rather than private litigation, and it involves the Supreme Court’s
comparatively recent decision in North Carolina State
Board of Dental Examiners v. F.T.C., 574 U.S. 494, 135
S. Ct. 1101 (2015).
Taking the Supreme Court case first, apprehension over placing private practitioners in regulatory
agencies constituted like this Board animated Dental
Examiner’s application of the Midcal test. The Court
explained that “[l]imits on state-action immunity are
most essential when the State seeks to delegate its
regulatory power to active market participants, for established ethical standards may blend with private

11a
anticompetitive motives in a way difficult even for
market participants to discern.” Id. at 504. Hence, it
was necessary to apply Midcal’s active supervision
prong, which “demands ‘realistic assurance that a private party’s anticompetitive conduct promotes state
policy, rather than merely the party’s individual interests.’” Id. at 507 (quoting Patrick, 486 U.S. at 101, 108
S. Ct. at 1663).
The Board nevertheless argues that it is entitled
to immunity from suit as a state agency, not a “purely
private part[y].” But the Court has rejected such a
“purely formalistic inquiry.” See Town of Hallie, 471
U.S. at 39, 105 S. Ct. at 1716. Instead, in Dental Examiners, the Court distinguished “specialized boards
dominated by active market participants” from “prototypical state agencies” because of the private incentives inherent in their structure. Id. at 511. Such
“agencies controlled by market participants are more
similar to private trade associations vested by States
with regulatory authority . . . .” Id. Thus, while the
Board may rightly defend its entitlement to state action immunity, it invokes the state action doctrine as
a private party. See also S.C. St. Bd. of Dentistry v.
F.T.C., 455 F.3d 436, 439 (4th Cir. 2006);
SmileDirectClub, LLC v. Battle, No. 19-12227, 2020
WL 4590098, at *11 (11th Cir. 2020) (Jordan, J., concurring) (“Even if we assume that a state is able to immediately appeal the denial of Parker immunity, an
interlocutory appeal should not be available to private
parties like the members of the Georgia Board of Dentistry, whose status does not implicate sovereignty
concerns.”).
As a private party, the policy imperatives behind
relieving the Board from suit as well as liability do not

12a
apply. See Acoustic Systems, 207 F.3d at 292–94. To
summarize, the collateral order doctrine must be deployed narrowly and “with skepticism,” and state action immunity, in particular, though it may extend to
private parties, exists principally to secure the full
scope of political activity for state actors. Id. Dental Examiners has intensified our skepticism of allowing an
interlocutory appeal. This court aptly stated, in reference to the state action “immunity” doctrine, that
“[t]he price of the shorthand of using similar labels for
distinct concepts is the risk of erroneous migrations of
principles.” Surgical Care Center of Hammond, LC v.
Hospital Serv. Dist., 171 F.3d 231, 234 (5th Cir. 1999)
(en banc).
Another reason for rejecting the Board’s quest for
collateral review is that this regulatory case was initiated by the FTC. Even if the Board were a sovereign
actor, it is paradigmatic that “[s]tates retain no sovereign immunity as against the Federal Government.”
West Virginia v. United States, 479 U.S. 305, 312 n.4,
107 S. Ct. 702, 707 n.4 (1987); see also Bd. of Dentistry,
455 F.3d at 447 (rejecting collateral order appeal of a
Parker immunity claim in a suit brought by the federal
government; “because such suits do not offend the dignity of a state, sovereign immunity is no defense to
such an action”).
In sum, case law does not support jurisdiction
based on the collateral order doctrine as applied
through Section 704 of the APA. Specifically, the second and third prongs of the doctrine are not satisfied
here. Parker immunity concerns the boundaries of federal antitrust law set against the principles of federalism and the states’ authority over their economies.
This court explained, “[w]hile thus a convenient

13a
shorthand, ‘Parker immunity’ is more accurately a
strict standard for locating the reach of the Sherman
Act than the judicial creation of a defense to liability
for its violation.” Surgical Care Center, 171 F.3d at
234. In this case, where the FTC challenges aspects of
rate setting by the Board as restraining price competition, and the FTC rejects the sufficiency of overarching
governmental supervision, an interlocutory ruling on
state action immunity by this court would inevitably
affect the question of liability. The issues relevant to
immunity in this case pertain to the reach of the Sherman Act, consequently, a judicial decision at this point
would not resolve an issue “completely separate from
the merits of the action,” as required by the second
prong of the collateral order doctrine. Acoustic Systems, 207 F.3d at 290. Nor, obviously, is the state action immunity issue “effectively unreviewable on appeal from a final judgment.” Id.;7 see N.C. State Bd. of
7

The Board relies perfunctorily on a finality test articulated in
Bennett v. Spear, 520 U.S. 154, 117 S. Ct. 1154 (1997). Bennett
pronounced two conditions that “must be satisfied for an agency
action to be ‘final’”: (1) the action must “mark the consummation
of the agency’s decision making process,” and (2) the action must
be that “by which rights or obligations have been determined or
from which legal consequences will flow.” 520 U.S. at 177–78, 117
S. Ct. at 1168. The Board argues that the April 10, 2018 order is
“independently reviewable as a ‘final’ order under the test articulated in Bennett” because the order “reflects a consummation of
the decision making process” from which “legal consequences will
flow, including [the Board’s] legal right to immunity from trial.”
This is incorrect. Not only is the Board not entitled to immunity
from suit, but the Commission’s denial of state action immunity
will affect the Board adversely only if the Commission ultimately
finds the Board liable for antitrust violations. Put differently, the
April 10, 2018 order “does not itself adversely affect [the Board]

14a
Dental Exam’rs, 717 F.3d 359, 366 (4th Cir. 2013) (considering the applicability of state action immunity in
a petition for review), aff’d, 574 U.S. 494 (2015).
For the foregoing reasons, the April 10, 2018 order
does not constitute final agency action under Section
704, and the collateral order doctrine does not apply.
Consequently, the district court lacked jurisdiction
over the Board’s lawsuit.
III. CONCLUSION
We VACATE the district court’s stay order and
REMAND with instructions to DISMISS the Board’s
lawsuit for lack of jurisdiction.

but only affects [its] rights adversely on the contingency of future
administrative action.” Am. Airlines, 176 F.3d at 288 (quoting
Rochester Tel. Corp. v. United States, 307 U.S. 125, 130, 59 S. Ct.
754, 757 (1939)). The April 10, 2018 order does not constitute final agency action under Bennett.

15a
APPENDIX B
________________________________
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA
________________________________
LOUISIANA REAL ESTATE APPRAISERS BOARD
VERSUS
UNITED STATES FEDERAL TRADE
COMMISSION
________________________________
CIVIL ACTION
NO.:19-CV-00214-BAJ-RLB
________________________________
RULING AND ORDER
Before the Court is Petitioner’s Motion to Stay
Administrative Proceedings (Doc. 9-1 at p. 1). Defendants oppose this motion. (Doc. 23-2). Oral argument is not required. For the reasons stated herein,
Petitioner’s motion is GRANTED.
I.

BACKGROUND

This matter arises from allegations that the
United States Federal Trade Commission (“FTC” or
“Defendant”) is unlawfully attempting to force the
Louisiana Real Estate Appraisers Board (“Board” or
“Petitioner”) to undergo federal antitrust enforcement
proceedings. (Doc. 1 at ¶ 1). The Board is a state governmental regulatory agency empowered to regulate
appraisal management companies which secure appraisals that support residential mortgage transactions. See La. Stat. Ann. § 37:3394, et seq. (Doc. 9-1 at
p. 3). The Board is also empowered to collect

16a
“customary and reasonable” fees for the agents of
mortgage lenders. (Id.).
On or about May 30, 2017, the FTC filed an administrative complaint against the Board, alleging
that setting certain “customary and reasonable” fees
for mortgage lenders’ agents violated certain federal
antitrust rules (Doc. 1 at par. 4). In particular, the
FTC alleges that the Board is controlled by active market participants, not the state, and that the manner in
which fees are set amounts to unlawful price fixing.
(Doc. 1 at ¶ 4). In response to the complaint, the Governor’s Office issued Executive Order 17-16, which repromulgated the manner in which fees are fixed.1 The
Board moved for a dismissal of the administrative
complaint based on its assertation that the alleged impropriety identified by the FTC had been rectified.
(Id.). The Board claimed that all branches of Louisiana
government accepted a supervisory role and “political
accountability” for the alleged anti-competitive practices cited by the FTC, as required under N.C. S. Ed.
of Dental Exam’rs v FTC, 135 S.Ct. 1101, 1111 (2015),
and that it is therefore entitled to be relieved from participation in the administrative proceedings on the basis of the “state-action immunity” defense. (Doc. 1 at
¶ 5). State-action immunity from suit is applicable
when a state establishes that anticompetitive conduct
is created, overseen, and guided by the state, without
the influence or control of parties who have not been
conferred regulatory powers by the state. F.T.C. v.
Phoebe Putney Health Sys., Inc., 568 U.S. 216, 225
(2013). To qualify for state-action immunity, a state
must establish that the anticompetitive act is a clearly
1

La. Admin. Code tit. 46 § 31101.

17a
articulated state policy, and that such activity is actively supervised by the state.2 (Id.).
On April 10, 2018, the FTC issued an order (“FTC
Order”) rejecting the Board’s state-action immunity
defense. (Id. at ¶ 6). The Board then filed a lawsuit
requesting that the Court set aside the FTC Order on
the grounds that it was issued in an arbitrary and capricious manner. (Id. at ¶ 9).
Initially, the Board filed a petition for review of
the FTC Order before the United States Court of Appeals for the Fifth Circuit, claiming that the FTC Order was an appealable collateral order under the FTC
Act.3 (Doc. 9-1 at p. 14). The Fifth Circuit granted the
Board’s request to stay administrative proceedings
pending appellate review, but ultimately found that
the FTC Act did not allow direct appeals from collateral orders. (Id.). The Fifth Circuit opined that the “final agency action” language of the Administrative Procedure Act (“APA”')4 may allow a district court to review the FTC Order prior to the final administrative
adjudication of the action. Louisiana Real Estate Appraisers Ed. v. Fed. Trade Comm’n, 917 F.3d 389, n.3
2

“Maintaining state-action immunity from administrative proceedings requires more than a mere facade of state involvement,
for it is necessary ... to ensure the States accept political accountability for anticompetitive conduct they permit and control.”
N. Carolina State Bd. of Dental Examiners v. F.T.C., 135 S. Ct.
1101, 1111 (2015).
3

15 U.S.C. § 45 provides “Any person, partnership, or corporation required by an order of the [Federal Trade] Commission to
cease and desist from using any method of competition or act or
practice may obtain a review of such order in the court of appeals
of the United States.
4

5 U.S.C. § 551, et seq.

18a
(5th Cir. 2019). Following the Fifth Circuit ruling, the
Board moved for rehearing en banc, and urged the
FTC to stay its administrative proceeding pending a
resolution of the petition. (Doc 9-1 at p. 14.). The Fifth
Circuit denied rehearing, and the FTC denied Petitioner’s request to stay the administrative proceedings. (Id.). The Board now seeks relief under the APA
to stay the FTC administrative proceedings until such
time as this Court completes a review of the merits of
the FTC Order. (Doc. 1).
II. LEGAL STANDARD
A. Jurisdiction
The Code of Federal Regulations gives the FTC
and a court of competent jurisdiction the power to stay
an administrative proceeding. 16 C.F.R. § 3.41(f)(1)(i).
Additionally, Section 705 of the APA allows a reviewing court to “issue all necessary and appropriate process to postpone the effective date of an agency action
or to preserve status or rights pending conclusion of
the review proceedings.” 5 U.S.C. § 705.
The Supreme Court of the United States found
that the term “court of competent jurisdiction” is any
state or federal court already endowed with subjectmatter jurisdiction over the suit.” Lightfoot v. Cendant
Mortg. Corp., 137 S. Ct. 553, 561 (2017).
B. Administrative Procedure Act
The APA provides:
[a]gency action[s] made reviewable by statute[,] and final agency action[s] for which
there is no other adequate remedy in a court[,]
are subject to judicial review. A preliminary,
procedural, or intermediate agency action or

19a
ruling not directly reviewable is subject to review [only] on the review of the final agency
action. 5 U.S.C. § 704.
Thus, under normal circumstances, agency actions are
only reviewable at such time as the agency action is
finalized. (Id.).
C. Appeal from a Collateral Order
The Supreme Court has recognized a narrow exception under the APA for the review of administrative
decisions which have not yet been made final but for
which justice requires interlocutory review. See Cohen
v. Beneficial Industrial Loan Corp., 337 U.S. 541
(1949). This narrow exception allows collateral reviews of administrative orders that (1) conclusively determine the disputed question, (2) resolve an important issue separate from the merits of the action,
and (3) are effectively unreviewable on appeal from a
final judgment. (Id.).
D. Stay Factors
To grant a stay of an administrative proceeding, a
court must consider (1) whether the stay applicant has
made a strong showing that he is likely to succeed on
the merits, (2) whether the applicant will be irreparably injured absent a stay, (3) whether issuance of the
stay will substantially injure the other parties interested in the proceeding, and (4) where the public interest lies. Hilton v. Braunshill, 481 U.S. 770, 776 (1987).
III. DISCUSSION
This Court is a “court of competent jurisdiction”
pursuant to the Supreme Court’s ruling in Lightfoot,
and thus, has jurisdiction to consider this matter. Further, federal question jurisdiction under 28 U.S.C.

20a
§ 1331 is applicable here. Having established that the
Court may issue a stay of the administrative proceeding, the Court now turns to whether doing so is warranted in this case.
A. The FTC Order is Appealable
When this matter was reviewed by the Fifth Circuit, that Court opined that the test set forth in Cohen
is applicable to some administrative decisions that dismiss certain affirmative defenses, but do not end the
litigation. Louisiana Real Estate Appraisers Bd. v.
Fed. Trade Comm’n, 917 F.3d 389, 392 (5th Cir. 2019).
The Fifth Circuit ultimately concluded that the FTC
Act only provided courts of appeals with jurisdiction to
review “cease and desist” orders. However, it left open
the door for Petitioner to bring a claim in the district
court by appealing the FTC Order under the APA (Id.
at n. 3). The FTC claims that this Court does not have
jurisdiction under the APA because the FTC Order
was not a “final agency action.” (Doc. 22-3 at pp. 5-6).
This Court’s jurisdiction under the APA is not limited to “cease and desist” orders; rather, the Act allows
challenges to “agency action[s] made reviewable by
statute and final agency action[s] for which there is no
other adequate remedy [ ... ]” 5 U.S.C. § 704. Therefore, should this Court find that the challenged agency
action meets the test set forth in Cohen, an interlocutory ruling may be entered in the case. The Court will
now consider each of the Cohen factors in turn.

21a
1.

Did the FTC Order Conclusively
Determine the Disputed Question of
Petitioner’s Immunity from Administrative
Action?

The FTC Order completely bars Petitioner’s stateaction immunity defense. (Doc. 9-2 at pp. 25). Although this denial was not dispositive of the entire
case, the Fifth Circuit has ruled that there is no requirement that the challenged decision be the final decision in the entire case. Because the FTC Order conclusively answers the question of whether Petitioner
is entitled to immunity from the FTC’s administrative
proceedings, the Court finds that Petitioner has established the first of the Cohen requirements.
2.

Did the FTC Order Resolve an Important
Issue Separate from the Merits of the
Underlying Action?

The FTC Order only addresses two of Petitioner’s
many affirmative defenses and does not involve all of
the merits of the underlying case. Because the FTC
Order is severable from the rest of the case, the Court
finds that Petitioner has established the second of the
Cohen requirements.
3.

Is the Denial of Immunity Unreviewable
on Appeal from the Final Judgment?

In Mitchell v. Forsyth, 472 U.S. 511, 512 (1985),
the Supreme Court found that the denial of qualified
immunity was similar to the denial of absolute immunity, and that both are effectively lost if a case is
erroneously allowed to proceed to trial. As noted, the
Supreme Court reasoned that because immunity involves the entitlement to not stand trial at all under
certain circumstances, should the case erroneously

22a
proceed to trial, such privilege would already have
been lost and is inherently unrecoverable. (Id.). Here,
the FTC Order dismissed the Board’s immunity defense, similar to the defense presented in Mitchell. Accordingly, petitioner has established the third and final Cohen factor.
B. The Court Shall Stay the Administrative
Proceeding
Having satisfied the jurisdictional prerequisites,
the Court must now consider the four “stay factors” set
forth in Hilton, 481 U.S. at 776. The FTC claims that
Petitioner cannot meet any of the Hilton factors. (Doc.
22-3 at pp. 11-19). The Court will nonetheless consider
each factor in turn.
1.

The Likelihood of Success on the Merits

To assess the likelihood of success on the merits of
a claim, the Court must consider the standards of the
substantive laws applicable to the matter. Janvey v.
Alguire, 647 F.3d 585, 596 (5th Cir. 2011). The Board
asserts that the question of whether a state may maintain state-action immunity is whether the state will
accept “political accountability for the anticompetitive
conduct they permit and control.” Dental Exam’rs, 135
S.Ct. at p. 1111. The Board claims that it has made a
strong showing that Louisiana’s legislative and executive branches have accepted political responsibility for
changing the challenged anti-competitive conduct.
(Doc. 23-2 at p. 7). The Board points to its own opening
brief wherein it asserted that the State of Louisiana
purposefully set uniform fees, and that the conduct
identified by the FTC has been rectified through legislative, executive, and judicial oversight. (Id.).

23a
Without reaching the merits of this matter, the
Court finds that the Board has made an acceptable
showing that the State has exercised sufficient oversight over, and accepted responsibility for, the actions
identified by the FTC. The first Hilton factor has been
established.
2.

Irreparable Injury Absent a Stay

The Board argues that should a stay not be
granted, its immunity from administrative proceedings would be lost, at which point the harm would be
impossible to redress post trial. (Doc. 23-2 at p. 6). The
Board further argues that disallowing the stay would
cause harm to the State by distracting state officials
and curtailing Louisiana’s ability to make and enforce
policies that it deems beneficial and that are responsive to the FTC’s claims. (Id.).
The Court agrees, and finds that the abrogation of
immunity itself, if improvidently done, may cause irreparable harm by forcing the State to engage in activities from which it might otherwise be protected,
such as an unlawful enforcement order. The second
Hilton factor has been met.
3.

Substantial Injury to the Public or Other
Parties Interested in the Proceedings

The Board contends that no party will be harmed
if the Court grants the stay, as it will refrain from enforcing La. Admin. Code tit. 46 § 31101 until the issue
of state-action of immunity is resolved by the Court.
(Doc. 23-3 at pp. 8-9). It further claims that granting
the stay will benefit Louisiana and its citizens by ensuring that Louisiana laws and regulations are appropriately enforced. (Id. at p. 9). The Board further argues
that should the Court deny the stay, the principles of

24a
federalism that underlie the purpose of state-action
sovereignty would be eroded, and would negatively impact Louisiana’s ability to regulate its own markets, to
the determent of its citizens. (Id. at p. 9).
The Court agrees that no substantial injury to the
public or other parties would result if this matter is
stayed. Also, the Court recognizes that an unnecessary
trial would hamper State officials’ efforts to conduct
the normal daily responsibilities of their offices, to the
detriment of the State. The Court further finds that
the arguments presented by the Board concerning the
public interests in granting the stay are valid. Petitioner has established the third and fourth Hilton factors.
IV. CONCLUSION
Accordingly,
IT IS ORDERED that Petitioner’s Motion to
Stay Administrative Proceedings (Doc. 9-1 at
p. 1) is GRANTED.
IT IS FURTHER ORDERED that all pending
activity in the matter captioned In the Matter of the
Louisiana Real Estate Appraisers Board, Dkt. No.
9374 (F.T.C.) is hereby STAYED until further order of
this Court.
Baton Rouge, Louisiana, this 29th day of July, 2019.
s/
JUDGE BRIAN A. JACKSON
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

25a
APPENDIX C
________________________________
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________________
No. 19-30796
________________________________
LOUISIANA REAL ESTATE APPRAISERS BOARD,
Plaintiff—Appellee,
versus
UNITED STATES FEDERAL TRADE COMMISSION,
Defendant—Appellant.
________________________________
Appeal from the United States District Court
for the Middle District of Louisiana
USDC No. 3:19-CV-214
________________________________
December 4, 2020
________________________________
Before JONES, ELROD, and HIGGINSON, Circuit Judges.
EDITH H. JONES, Circuit Judge:
PER CURIAM:
IT IS ORDERED that the appellee’s opposed motion to stay the issuance of the mandate pending disposition of Louisiana Real Estate Appraisers Board’s
petition for certiorari is DENIED.
IT IS FURTHER ORDERED that the appellee’s
opposed alternative, motion to stay the Federal Trade
Commission proceeding pending the disposition of a
petition for writ of certiorari is DENIED.

26a
APPENDIX D
________________________________
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________________
No. 19-30796
________________________________
LOUISIANA REAL ESTATE APPRAISERS BOARD,
Plaintiff—Appellee,
versus
UNITED STATES FEDERAL TRADE COMMISSION,
Defendant—Appellant.
________________________________
Appeal from the United States District Court
for the Middle District of Louisiana
USDC No. 3:19-CV-214
________________________________
December 1, 2020
________________________________
ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Opinion October 2, 2020, 5 CIR., ____, ____ F.3D ____)
Before JONES, ELROD, and HIGGINSON, Circuit Judges.
PER CURIAM:
(X) The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R.
APP. P. AND 5TH CIR. R. 35) the Petition for Rehearing En Banc is also DENIED.

27a
()

The Petition for Rehearing is DENIED and the
court having been polled at the request of one of
the members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor, (FED. R.
APP. P. AND 5TH CIR. R. 35) the Petition for Rehearing En Banc is also DENIED.

()

A member of the court in active service having requested a poll on the reconsideration of this cause
En banc, and a majority of the judges in active service and not disqualified not having voted in favor,
Rehearing En Banc is DENIED.
s/
Edith H. Jones
United States Circuit Judge

